No.
_______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________
ROLANDO FELIX-CARRAZCO,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent
_______________________________________
On Petition for Writ of Certiorari to the
Ninth Circuit Court of Appeals
_______________________________________
PETITION FOR WRIT OF CERTIORARI

VERNA WEFALD
65 North Raymond Avenue, Suite 320
Pasadena, California 91103
Telephone: 626-577-2658
Facsimile: 626-685-2562
Email: verna@vernawefald.com
Counsel of Record

QUESTION PRESENTED
Whether this Court should decide that the repeated questioning of
jurors who have complained about one juror (who is obviously a holdout) is
tantamount to the forbidden questioning in Brasfield v. United States, 272 U.S.
448 (1927) that the trial court may not inquire as to the numerical division of a
jury when it is unable to reach a unanimous verdict.
RELATED PROCEEDINGS
United States District Court
United States v. Felix-Carrazco, CR-18-59-DAD (E.D. Cal.)
Ninth Circuit Court of Appeals
United States v. Felix-Carrazco, 19-10036

i

TABLE OF CONTENTS
OPINION BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISION INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A.

The evidence against Petitioner consisted of nothing but
documents. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

B.

The district court removed Juror No. 7 after several jurors complained he
wanted to see more evidence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

C.

The court nevertheless asked more jurors about Juror No. 7, and they all
characterized the dispute as to the evidence or the lack of it . . . . . . . . . 5

D.

When the court again inquired of Juror No. 7 whether he was refusing
to follow instructions, he responded that he had “a doubt”
about the case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

E.

Defense counsel argued that Juror No. 7 had simply found the evidence to
be insufficient but the court disagreed and excused him . . . . . . . . . . . 11

F.

The Ninth Circuit affirmed without acknowledging that Juror
No. 7 repeatedly said he was concerned about the evidence –
or lack of it . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
THIS COURT SHOULD PROVIDE GUIDANCE TO THE LOWER COURTS AS
TO HOW FAR A COURT MAY DELVE INTO JUROR DELIBERATIONS
WHEN THERE IS ONE HOLDOUT JUROR . . . . . . . . . . . . . . . . . . . . . . . . . 14
A.

The Ninth Circuit has held that when the record discloses any
reasonable possibility that the impetus for a juror’s dismissal stems
from the juror’s views on the merits of the case, the court must not
dismiss the juror . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
ii

1. Symington . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
2. Christensen . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
B.

This Court should grant certiorari to provide guidance to the lower
courts about how far a trial court may delve into the deliberations
before removing a holdout juror . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iii

TABLE OF AUTHORITIES
CASES
Brasfield v. United States, 272 U.S. 448 (1927) . . . . . . . . . . . . . . . . . . . . . 19, 20
United States v. Christensen, 825 F.3d 763 (9th Cir. 2016). . . 11, 14, 17, 18, 19
United States v. Symington, 195 F.3d 1080 (9th Cir. 1999) . . . . . 14, 15, 16, 17
United States v. Thomas, 116 F.3d 606 (2nd Cir. 1997) . . . . . . . . . . . . . . 16, 17
STATUTES
8 U.S.C. § 1326(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
18 U.S.C. §3231 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
[8 U.S.C. § 1326(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

iv

No.
_______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________
ROLANDO FELIX-CARRAZCO,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent
_______________________________________
PETITION FOR WRIT OF CERTIORARI

Petitioner Rolando Felix-Carrazco respectfully prays that a writ
of certiorari issue to review the decision of the United States Court of Appeals
for the Ninth Circuit filed on May 14, 2020. The decision is unpublished.
OPINION BELOW
On May 14, 2020, the Court of Appeals entered its decision
affirming petitioner’s conviction for being a deported alien in the United
States in violation of 8 U.S.C. § 1326(a) and (b)(2). (Appendix A
[memorandum decision].) On May 26, 2020, the petition for rehearing was
denied. (Appendix B.)
1

JURISDICTION
On May 26, 2020, the Court of Appeals denied the petition for
rehearing. (Appendix B.) Jurisdiction of this Court is invoked under 28
U.S.C. §1254(1). This petition is due for filing on August 24, 2020. Supreme
Court Rules 13(3). The order of March 19, 2020, extends that deadline to
October 23, 2020. Jurisdiction existed in the District Court pursuant to 18
U.S.C. §3231 and in the Ninth Circuit Court of Appeals under 28 U.S.C.
§1291.
CONSTITUTIONAL PROVISION INVOLVED
Sixth Amendment (pertinent part)
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury ....
STATEMENT OF THE CASE
A.

The evidence against Petitioner consisted of nothing but
documents
The government’s prosecution of Petitioner for reentry after

deportation [8 U.S.C. § 1326(a) and (b)(2)] rested entirely on documents from
Petitioner’s immigration file. Even the one testifying immigration officer who
did encounter Petitioner had no recollection of him. In closing argument,
defense counsel said that because “this is a document case” with no witnesses

2

to verify the information contained in those documents, I”m asking you to
hold the government accountable. You are the gatekeeper. You are the ones
who are going to decide whether or not you allow the government just to have
a pass.” (1 ER 159.)
Counsel analogized the situation to a contested a traffic ticket
where an officer would come to court and read the ticket. However, this
officer was not the one who calibrated the radar gun, did not personally see
the driver of the car, and could not even identify the driver. “No. But the
ticket says so. So therefore it must be true. ¶ That’s really what the
government’s case is about if you think about it.” (1 ER 144.)
Is it too difficult to get the people who actually prepared these
documents to come in to the Court and to testify as to their
personal knowledge? Maybe it is. Maybe they couldn’t get those
witnesses. But that’s what their burden is. And you serve as the
gatekeepers on the facts of the case. You decide what we’re going
to accept or what wer’e not going to accept in terms of proof
beyond a reasonable doubt.
(1 ER 145.)
B.

The district court removed Juror No. 7 after several jurors
complained he wanted to see more evidence
The jury’s first note after it began to deliberate was a request to

see unredacted evidence from exhibits 1, 2, 3, 5, 9, 13, 14, 25, 32, and 33. The

3

court informed the jury that it could not provide that information and
cautioned the jury not to speculate what had been redacted.
At the end of the first day of deliberations the jury said a
unanimous verdict had not been reached and asked to recess. The next day
the court informed the parties that a juror had called chambers and
expressed concern that another juror was not following the instructions. The
juror subsequently wrote a note that a juror was not following instructions
about redacted information and was rejecting testimony “solely on the fact
that ‘they are government.’” (1 ER 46, 187.)
The district court acknowledged that it could not inject itself into
deliberations. It could reinstruct but feared the case was headed for a
mistrial. Defense counsel thought that the note could be construed in
different ways and perhaps it was a question of how the juror viewed the
sufficiency of evidence.
The jurors were brought into the courtroom and the judge
instructed that it could not delve into the deliberations. The court told them
to follow all the instructions and not speculate. It had a duty to weigh all the
evidence and decide the case solely on the law rather than sympathy.
After more deliberation the jury sent out another note stating
that it could not come to a unanimous verdict because of the instruction to

4

disregard any evidence that had been stricken. The court said it could
inquire juror by juror if someone was refusing to follow instructions but
defense counsel objected to any further inquiry of the jurors as to any specific
issues regarding deliberations.
The court decided to make further inquiries. The foreperson said
there was one juror (No. 7) who was refusing to follow instructions. The court
inquired of Juror No. 7 if that was true. Juror No. 7 denied that but said he
could not elaborate given the instructions. The court told the parties it was
concerned about Juror No. 7's demeanor but defense counsel objected to any
further inquiry.
C.

The court nevertheless asked more jurors about Juror No. 7,
and they all characterized the dispute as to the evidence or the
lack of it
The court said it would take a break but announced that it was

going to make further inquiries and “if I get a majority of jurors saying yes,
Juror 7 has affirmatively stated a refusal to follow the instructions,” the court
would ask Juror No. 7 to explain. Then it would make a credibility
determination. (1 ER 215.)
After the break, the court asked Juror No. 8 what Juror No. 7
said about not following instructions. Juror No. 8:

5

I can’t remember specific statements, but there have been actions
taken of refusal to express his own beliefs and be open to other
beliefs. ¶ He refuses to even take a look at the evidence or try to
understand other jurors’ viewpoints. And he does not wish to
express his own to us. He simply shuts the other viewpoints out.
(1 ER 217, emphasis added.) The court commented this sounded like a
refusal to deliberate. (1 ER 21.)
Juror No. 8 said that after the first question about the redactions,
Juror No. 7 said the “instructions mean nothing to him and they do not
pertain to his viewpoints. ¶ Even though other jurors have argued that they
specifically do, he does not accept the instructions as being as such.” (1 ER
217-218.) “He has stated that based on the redactions, he cannot trust the
system under which we are under oath to work in.” (1 ER 218.)
After Juror No. 8 left the courtroom the court said it doubted
whether Juror No. 7 would abide by any instructions. The redactions were
made to protect the defendant from prejudicial information. (1 ER 219.) The
government suggested making inquiries of Juror No. 2 to see if he would
corroborate Juror No. 8. (1 ER 220.)
Defense counsel said that after listening to Juror No. 7, it did not
seem like a refusal to deliberate but rather he “has deliberated” and he is a
“holdout juror.” (1 ER 220.) The juror has “made an opinion of whether or not

6

he thinks the government has proven its case, one way or another, and has
deliberated and expressed his opinions.” (1 ER 221.)
The court disagreed, believing it was clear from the foreperson’s
point of view that this was not about differences of opinion regarding the
evidence but a refusal by one juror to follow the instructions. (1 ER 223.) The
court made further inquiries:
! Juror No. 2 said that after the court clarified redacted
information was not part of the evidence, “one of the jurors said that he
rejected that because you are the government, and he did not care if the
defense lawyer has chosen not to bring it up or not, because of distrust.” (1 ER
224.) He was not “looking at any of the evidence” because of the redaction. (1
ER 225, emphasis added.)
! Juror No. 12 said of Juror No. 7, “there is not acceptance.” (1
ER 227.) “There is reluctant [sic] to accept the evidence presented.” (1 ER 227,
emphasis added.) Juror No. 7 said “he is not going to consider the evidence
due to — he — the need of being ]to] disclose more evidence.” (1 ER 228,
emphasis added.) “There is a belief that we should be allowed to look at more
evidence that has not been disclosed to us.” (1 ER 229.)
! Juror No. 11 said that statements by Juror No. 7 in regard to
not following the instructions, “was along the lines of distrust in the

7

government” and “a questioning of the redacted information.” (1 ER 231.)
Because the jury was not allowed to see the redacted information, “this juror
is not able to see past that and unable to consider the evidence that was
presented.” (1 ER 232, emphasis added.) Without being able to see the
redacted information, “this juror was, in my opinion, not willing to consider
anything else, and would not allow us to move forward in reaching a
unanimous decision.” (1 ER 233, emphasis added.)
The court said that after hearing from these four jurors, whose
responses were “quite consistent,” it believed that Juror No. 7 “is refusing to
accept and follow the Court’s instruction that the redacted information is
irrelevant to the issues before the jury.” (1 ER 234.) At that point, “the only
thing for me to do is to inquire once again with Juror Number 7 directly as to
whether that in fact is the case.” (1 ER 234.) If he agrees, then the court
would inquire if he will reconsider and follow the instructions. If he disagrees
the court would make a credibility determination. (1 ER 234.)
The government agreed with the court’s approach, but defense
counsel reiterated he had stated his objections. However, if the court was
going to bring in Juror No. 7, they should decide what to do after he speaks.
(1 ER 235.)

8

D.

When the court again inquired of Juror No. 7 whether he was
refusing to follow instructions, he responded that he had “a
doubt” about the case
Juror No. 7 was brought back into the courtroom. The court

summed up the jury notes and instruction that they were to disregard the
redactions and not speculate about the redactions. The Court: “It has been
reported to the Court that you are refusing to follow that instruction.” (1 ER
236.) “I will ask you, sir, are you refusing to follow the Court’s instruction as
embodied in its answer to the jury’s inquiry?” (1 ER 236-237.) Juror No. 7:
“No.” The Court: “Several of your fellow jurors have reported that that is
precisely what you are doing ....” Juror No. 7: “Without going into our
deliberation process, I can’t answer that.” The Court: I think it is a ‘yes’ or
‘no’ answer. Juror No. 7: “I disagree.” (1 ER 237.)
Juror No. 7 conceded that he had wanted to see the redacted
information before making a decision. When the court reminded him of the
instruction to disregard it and not speculate, the juror answered:

I find it very difficult to come to a decision about my feelings
about the guilt or not guilt with those instructions. It seems to
inhibit my ability to weigh the entire totality of the government’s
case against the individual.
(1 ER 238.)
9

When the court said it sounded like he was saying he cannot
follow the instruction. Juror No. 7: “That’s up to you.” (1 ER 238.) The court
again said it sounded like he was saying he could not disregard the redaction.
Juror No. 7, responded:
I’m saying it is very difficult. My instructions were to evaluate all
the evidence and come, if there was no doubt in my mind, without
any doubt in my mind, one way or the other.
And it is impossible for me to come to that point in deciding one
way or the other, so a doubt has been created. And that’s my
basis for asking for more information. And if the information
doesn’t come – if you have restricted that, then that’s – you have
restricted me from being able to make a decision. So.”
(1 ER 239, emphasis added.)
The court again asked the juror if he was refusing to follow the
instruction. The juror responded:
I’m saying it makes it impossible for me to make an objective
decision. The Court is making it impossible for me to come to a
conclusion that would be objective. And so I have a question of –
there is an element of doubt that I have to, in all good
consciousness [sic], insist that it be taken into account.
(1 ER 239, emphasis added.)
The court: You are refusing to follow the Court’s instruction?
Juror No. 7: “Again, I keep saying this. Information is being withheld from
me as a juror, and if the information is being withheld, I can’t make a

10

decision one way or the other.” The court: Even though I have instructed you
to disregard it? Juror No. 7: “Of course.” (1 ER 240.)
E.

Defense counsel argued that Juror No. 7 had simply found the
evidence to be insufficient but the court disagreed and excused
him
The government said it was “pretty clear” that Juror No. 7 was

refusing to follow the instructions of the court. (1 ER 240.)
Defense counsel disagreed. “I read that juror to be saying that,
based upon the evidence that’s been presented at this point in time, he has
insufficient evidence before him in order to make a finding one way or the
other.” (1 ER 240-241.) He was saying that if he had the missing
information, that might allow him to be persuaded one way or the other; but
he was not saying that he refused to deliberate or refused to follow the court’s
instructions. (1 ER 241.) The juror had “questions or concerns about the state
of the evidence if it doesn’t include the redacted portions of the materials.” (1
ER 242.) “Which to me means that there is – without that information, there
is insufficient evidence for him to make that decision.” (1 ER 242.)
The court ruled that it would remove Juror No. 7, relying
primarily on Christensen, 828 F.3d 763. “I have tried to take precautions to
restrain my inquiry .... and conclude, based upon the statements of the other

11

jurors, that Juror Number 7 has refused, due to his disagreement with the
Court’s instructions” to follow the instruction. (1 ER 243-244.) This was
“completely and totally unrelated to any position on the merits of this case or
legitimate views or truly-held views as to the evidence.” (1 ER 244.) The
court found good cause under Rule 23(b) to excuse the juror. (1 ER 244.)
Defense counsel refused to proceed with a jury of 11. The court
excused Juror No. 7, and called in the alternate, Juror No. 15. (1 ER 245.)
The newly constituted jury returned a guilty verdict in about twenty minutes.
F.

The Ninth Circuit affirmed without acknowledging that Juror
No. 7 repeatedly said he was concerned about the evidence – or
lack of it

The memorandum decision failed to mention that Juror No.
7 did exactly what defense counsel asked him to do. The memorandum
decision failed to acknowledge that the juror’s concerns were related to
evidence – or lack of it.
The memorandum decision upheld the district court’s
decision to remove Juror No. 7, stating that he only made a “passing
reference” to the state of the evidence. (Appendix A at 3.) However,
Juror No. 7 in fact stressed several times that because information had

12

been withheld from him he had a reasonable doubt. This is exactly
what defense counsel asked him to do – hold the government
accountable in a case based solely on documents.

13

REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD PROVIDE GUIDANCE TO THE LOWER
COURTS AS TO HOW FAR A COURT MAY DELVE INTO JUROR
DELIBERATIONS WHEN THERE IS ONE HOLDOUT JUROR
A.

The Ninth Circuit has held that when the record discloses
any reasonable possibility that the impetus for a juror’s
dismissal stems from the juror’s views on the merits of the
case, the court must not dismiss the juror
The leading Ninth Circuit case regarding the district court’s

responsibilities when deciding to dismiss a juror during deliberations after
other jurors complain is United States v. Symington, 195 F.3d 1080, 1084 (9th
Cir. 1999). The district court acknowledged this case but said it was relying
on United States v. Christensen, 825 F.3d 763, (9th Cir. 2016) when it excused
Juror No. 7. (1 ER 88, 243-244.) Because Felix-Carrazco’s case is akin to
Symington and not Christensen it is important to discuss both cases in some
detail.
1.

Symington
Symington was tried for false statements and wire fraud. After

several days of deliberation, a juror sent out a note which said that one juror
“has stated their final opinion prior to review of all counts.” Symington, 195
14

F.3d at 1083. After discussing the note with the parties, the court instructed
that the jurors were to deliberate with each other but make up their own
mind. Ibid.
In a second note, a juror complained about Juror Cotey for not
being focused, inability to recall topics under discussion, refusal to discuss
views with other jurors, and inability to understand the discussions. The
court and the parties spoke to other jurors, but not Juror Cotey, and they
agreed with this assessment. One juror said Cotey was “very intelligent” but
had her mind set. Id. at 1084. Other jurors indicated that they were
frustrated with Cotey’s disagreement on the merits of the case. Another juror
indicated that Cotey was an obstacle to reaching a verdict. Ibid.
When the judge questioned Cotey herself, she said she was
prepared to continue deliberating but could not agree with the majority all
the time. She found herself “backed up against the wall for a vote every time”
and she “didn’t like being bullied.” Ibid. She became intimidated when
everyone talked at once and demanded she justify her views as soon as she
said them. Ibid.
The district court decided to dismiss Cotey because she was
“either unwilling or unable to deliberate with her colleagues.” Ibid. The court
replaced Cotey with an alternate. The next day Symington moved for a
15

mistrial on grounds that the disagreement was rooted in the merits of the
case. The motion was denied. The jury ultimately convicted of Symington of
seven counts, acquitted him on three counts, and hung on eleven counts.
The Ninth Circuit reversed, holding that removing a juror
because he is unpersuaded by the government’s case denies the defendant the
right to a unanimous verdict. Id. at 1085. When a request by other jurors
that a juror be dismissed because they disagree with her on the merits, the
judge must either declare a mistrial or send the jury back with instructions to
continue deliberating. Id. at 1085-1086.
The primary question was “how likely must it be that a juror’s
views on the merits underlies the request for her removal, before the district
court is precluded from removing the juror?” Id. at 1086. A judge is precluded
from delving deeply into a juror’s motivations because he cannot intrude into
the jury’s deliberations. Id. citing United States v. Brown, 823 F.2d at 596.
A court cannot second guess and influence the work of the jury;
nor can it expose the deliberations to public scrutiny. Id. citing United States
v. Thomas, 116 F.3d 606, 620 (2nd Cir. 1997). These limitations make it
difficult to ascertain whether a juror is unwilling to deliberate or simply
disagrees with other jurors on the merits. Therefore:
We hold that if the record evidence discloses any reasonable
possibility that the impetus for a juror’s dismissal stems from the
16

juror’s views on the merits of the case, the court must not dismiss
the juror. Under such circumstances, the trial judge has only two
options: send the jury back to continue deliberating or declare a
mistrial.
Symington, 195 F.3d at 1087.
“To remove a juror because he is unpersuaded by the
government’s case is to deny the defendant his right to a unanimous verdict.”
Symington, 195 F.3d t 1085, citing Thomas, 116 F.3d at 621.
While there may have been some reason to doubt Cotey’s abilities
as a juror, “there was considerable evidence to suggest that the other jurors’
frustrations with her derived primarily from the fact that she held a position
opposite to theirs on the merits of the case.” Id. at 1088. Some jurors’
complaints indicated that Cotey was preventing them reaching a verdict.
Cotey said that she could not “agree with the majority all of the time.” Ibid.
Since it was reasonably possible that because the impetus for Cotey’s
dismissal was due to her position on the merits of the case it was error to
dismiss her. Ibid.
2.

Christensen
Christensen was tried with several other defendants for engaging

in illegal wiretapping during private investigations. A divided court upheld
the dismissal of Juror No. 7 in Christensen after several notes from the jury
complained about a juror that suggested he was unwilling to follow the law
17

because he disagreed with it. After questioning the particular juror, the court
determined that he would not follow the law and that he had lied to the court.
Under Rule 23(b), an intentional disregard of the law, “often in the form of
juror nullification, can constitute good cause for dismissal of the juror.”
Christensen, 828 F.3d at 806.
Lying to the court about matters related to potential bias may
also constitute good cause. “We afford ‘special deference’ to a trial court’s
adverse credibility finding because the determination of credibility is ‘largely
one of demeanor.’” Id. at 808 (citation omitted). When there is a possibility
the juror has lied, the district court will “not always suffer from the same lack
of investigative power that limits the court’s ability to inquire into problems
among deliberating jurors.” Ibid.
In Christensen, Juror No. 9 accused Juror No. 7 of disagreeing
with the law, allegedly saying that if it is okay for the government to wiretap
and not get caught then it is okay for him. Juror No. 9 sent another note
accusing Juror No. 7 of saying “in the law we don’t have to pay federal taxes,
just state taxes.” Id. at 809.
When questioned, Juror No. 7 denied that he had made those
statements. The complaining juror was angry because he disagreed with the
majority. Id. at 810. The court then questioned five other jurors who
18

confirmed that Juror No. 7 said if the federal government could do it and not
be found guilty, then a private citizen shouldn’t be found guilty. Ibid.
The Ninth Circuit found that because five other jurors
contradicted Juror No. 7 when he denied making statements about the
validity of wiretapping, the district court’s finding that Juror No. 7 had lied
was not clearly erroneous. Id. at 811. “Under these circumstances, it appears
to us highly unlikely that the other jurors were motivated by Juror 7's
disagreement with their views on the merits.” Ibid. “All of the concerns
expressed by the other jurors related to Juror 7's views on the law, not the
evidence.” Id. at 811-812.
B.

This Court should grant certiorari to provide guidance to
the lower courts about how far a trial court may delve into
the deliberations before removing a holdout juror
Although the Ninth Circuit has laid out rules for district courts to

follow when deciding to remove a juror during deliberations, this Court has
not done so. It has held that when a federal jury is unable to render a
unanimous verdict the judge may not make inquiries as to the numerical
division even if it does not ask how many for or against conviction. Brasfield
v. United States, 272 U.S. 448, 449-50 (1927). This Court, however, has not

19

definitively held how far the district court may go in making inquiries of a
jury when there is one juror who appears to be the holdout.
In this case, other jurors complained that Juror No. 7 was
refusing to follow instructions (not to speculate about redacted information)
but the court’s colloquy with this juror revealed that he had a doubt about the
sufficiency of evidence to convict. He did say that he was concerned that
information had been withheld from him but stressed that this therefore
created a doubt about the government’s case.
The lower courts are in much need of guidance as to how far a
trial court may go in making inquiries of the jurors when they have
complained that one juror is not on the same page as everyone else. Here, the
district court made inquiries of numerous jurors before it removed Juror No.
7. The issue is, at what point does the district court intrude into
deliberations by its repeated questioning of the jurors as to the basis for their
disagreement with the holdout who is preventing the return of a unanimous
verdict.
Although the district court did not ask what the numerical
division was as in Brasfield, the court’s repeated questioning was tantamount
to the same thing, or even worse. It was obvious that Juror No. 7 was leaning
towards an acquittal and the other eleven jurors were going to vote guilty.

20

This case is the perfect vehicle to lay down some guidelines for the lower
courts to follow.
CONCLUSION
For the reasons expressed above, Petitioner respectfully requests
that a writ of certiorari issue to review the judgment of the Ninth Circuit
Court of Appeals.
Date: July 13, 2020

Respectfully submitted,

VERNA WEFALD
Counsel of Record

21

